DOE/IG-0481




         AUDIT
        REPORT




                                 THE DECONTAMINATION AND
                                DECOMMISSIONING CONTRACT
                                  AT THE EAST TENNESSEE
                                     TECHNOLOGY PARK




                                         SEPTEMBER 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                            September 12, 1000


MEMORANDUM FOR THE SECRETARY

FROM:                 Gregory H. Friedman (Signed)
                      Inspector General

SUBJECT:              INFORMATION: Audit Report on "The Decontamination and Decommissioning
                      Contract at the East Tennessee Technology Park"

BACKGROUND

The East Tennessee Technology Park (ETTP), formerly known as the K-25 Site, was established in 1942 to
produce enriched uranium. Since the production mission ended in 1987, the Oak Ridge Operations Office
(Operations Office), which is responsible for the ETTP, has focused on environmental management of the
site. In August 1997, the Operations Office awarded a $238 million fixed-price contract to BNFL, Inc.
(BNFL) to decontaminate and decommission (D&D) three large uranium enrichment buildings in the
ETTP. BNFL was also to recycle or dispose of the materials in the buildings and make the buildings
available for commercial use by September 2003. Through June 2000, the Department approved upward
price adjustments to the contract totaling $12 million. The objective of this audit was to determine whether
the D&D of the three buildings will be completed within the current contract price and on schedule.

RESULTS OF AUDIT

BNFL is not on track to complete the D&D of buildings K-29, K-31, and K-33, within the current contract
price or on schedule. As of March 2000, BNFL had incurred 61 percent of the costs associated with the
current value of its contract, but it had completed only 14 percent of the project. The audit disclosed that
BNFL's management team was ineffective. We found that the contractor had changed project management
teams twice during the first two years of the contract and has been slow to identify and correct significant
problems. We noted, as well, that the Operations Office did not pay sufficient attention to BNFL's
escalating project cost. In discussions during the audit, the contracting officer was not aware that BNFL's
total project cost would be significantly higher than the contract price. To put the problem in perspective,
we estimate the project will cost $94 million more than the current contract amount of $250 million and that
completion is at least two years behind schedule. This estimate is based on the current scope of work and
does not include uncertified requests for equitable upward price adjustments totaling $107 million, which
BNFL has already submitted.
                                                     -2-


In our judgment, despite the importance of this project to the Department, its successful completion is
uncertain. We base this conclusion on the following factors:

       •   The project cost overruns and schedule delays experienced to date:

       •   The fact that BNFL has already submitted price adjustments totaling about 46 percent of the
           original project contract value;

       •   Concerns regarding the effectiveness of management and oversight of the project at both the
           contractor and Federal levels; and,

       •   Questions previously raised by the Defense Contract Audit Agency as to BNFL's financial
           condition.

Although this report includes a number of recommendations designed to address many of these issues, it is
clear that the D&D project at ETTP requires close scrutiny and attention by the Department's senior
management.

During the course of the audit, we also noted that BNFL did not perform accurate surveys of contaminated
metals before the contractor released the metals for recycling on the open market. We found that
employees who performed the surveys were not adequately supervised. As a result, there was increased
risk to the public that contaminated metals were released from the site, a condition that, obviously, was
contrary to the Department's objectives when it established this program. In an action unrelated to this
report, in July 2000, at your direction, the Department terminated further sales of these metals.


MANAGEMENT REACTION

Management concurred with the findings and recommendations.

cc: Deputy Secretary
    Under Secretary
THE DECONTAMINATION AND DECOMMISSIONING CONTRACT AT
THE EAST TENNESSEE TECHNOLOGY PARK


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective ..........................................................1

                 Conclusions and Observations.................................................. 1


                 Price Increases and Schedule Delays

                 Details of Finding.......................................................................2

                 Recommendations and Comments ...........................................5


                 Metal Survey Errors

                 Details of Finding.......................................................................7

                 Recommendations and Comments ...........................................9


                 Appendices

                 Scope and Methodology...........................................................10

                 Past Audits ...............................................................................11
OVERVIEW

INTRODUCTION AND   The East Tennessee Technology Park (ETTP), formerly known as the
OBJECTIVE          K-25 Site, contains about 400 buildings and 4,700 acres on the Oak
                   Ridge Reservation. The K-25 Site was established in 1942 to produce
                   enriched uranium. Since the production mission ended in 1987, the
                   Oak Ridge Operations Office (Operations Office) has focused on
                   environmental management of the site.

                   In August 1997, the Operations Office entered into a $238 million
                   fixed-price contract with BNFL, Inc. (BNFL) to decontaminate and
                   decommission (D&D) three large uranium enrichment buildings (K-29,
                   K-31, and K-33). According to the contract, BNFL was also to recycle
                   or dispose of the materials in the buildings and make the buildings
                   available for commercial reuse by September 2003. The buildings
                   cover 96 acres and contain an estimated 129,000 tons of potentially
                   reusable metal from process equipment. The contract is the largest
                   D&D project ever undertaken by the Department.

                   The objective of this audit was to determine whether the D&D of
                   Buildings K-29, K-31, and K-33 will be completed within the current
                   contract price and on schedule.

CONCLUSIONS AND    BNFL was not on track to complete the D&D of Buildings K-29, K-31,
OBSERVATIONS       and K-33 within the current contract price or on schedule. As of March
                   2000, BNFL had incurred 61 percent of the current contract price and
                   completed only 14 percent of the project. This condition occurred
                   primarily because BNFL's management team was ineffective. In
                   addition, the Operations Office did not provide sufficient oversight of
                   BNFL's project cost. As a result, the project will cost an estimated
                   $94 million more than the current contract amount and be completed at
                   least 2 years behind schedule.

                   In addition, BNFL did not perform accurate surveys of contaminated
                   metals before it released the metals for recycling on the open market.
                   Employees who performed the surveys were not adequately supervised.
                   As a result, there was an increased risk to the public that contaminated
                   metals were released.

                   The audit identified issues that management should consider when
                   preparing its yearend assurance memorandum on internal controls.


                                                        _______(Signed)________
                                                        Office of Inspector General


Page 1                                                        Introduction and Objective
PRICE INCREASES AND SCHEDULE DELAYS
BNFL Was Not on          BNFL was not on track to complete the D&D of Buildings K-29, K-31,
Track to Complete        and K-33 within the current contract price or on schedule. The current
D&D Within the           contract price consists of the original award ($238 million) plus the
Contract Price or on     price adjustments awarded through June 2000 ($12 million). As of
Schedule                 March 2000, BNFL had incurred 61 percent of the cost value of the
                         current contract price and had completed only 14 percent of the
                         project.1 These buildings were divided into a total of 17 units. Based
                         on the original schedule, six of the 17 units should have been completed
                         as of June 2000, however, only one unit was completed. Also, the most
                         difficult part of the project was yet to be completed. Specifically, 95
                         percent of the largest and most cumbersome pieces of equipment,
                         converters, were not dismantled. As of the beginning of June 2000,
                         BNFL had dismantled only 83 of the 632 converters in Building K-33
                         and had not begun dismantling any of the converters in Buildings K-29
                         and K-31. Currently, BNFL dismantles an average of five converters
                         per week. At this rate, the project will not be complete before January
                         2006, which is more than two years after the original scheduled
                         completion date.

                         BNFL contends that the contract will be completed on time, and only
                         the costs associated with changes to the original work scope outside of
                         the contractor's control (i.e., storm-related damages to equipment, the
                         Department's January 2000 moratorium on the release of recycled
                         nickel, and material volumes that were larger than expected) will result
                         in price increases to the Government. Thus, BNFL believed that the
                         Department was responsible for many of the conditions and
                         circumstances that affect project cost and schedule. As a result, BNFL
                         submitted eight uncertified requests for equitable price adjustments
                         totaling $107 million. It also discussed its intention to pursue an
                         additional adjustment of $40 million attributable to the Department's
                         moratorium on the release of recycled nickel.

Fixed-Price Contracts    The Department established a goal to complete cleanup activities at
Play a Key Role in the   more than 90 percent of its sites by 2006. Contract reform, including
Department's Cleanup     using more competitively awarded fixed-price contracts, was expected
Goal                     to play an essential part in achieving this goal. The Department
                         believed that contract reform offered the potential to reduce cleanup
                         project life-cycle cost. Specifically, the Department believed that the
                         increased use of fixed-price contracts would achieve more efficient
                         cleanup and significant savings. Fixed-price contracts place full
                         responsibility for all costs and the resulting profit or loss on the
                         contractor which reduces the risk to the Government.
                         ____________
                         1
                           Because this was a fixed price contract with a milestone payment schedule — paid
                         as segments of the buildings were completed — DOE had paid about 20 percent of the
                         $250 million current contract price as of March 2000.

Page 2                                                                               Details of Finding
                         The BNFL contract dominates the D&D Fund appropriation for the
                         Oak Ridge Reservation, and ultimately drives the "critical path" for
                         the Operations Office's ongoing cleanup program. The contract
                         requires the buildings to be available for commercial reuse by
                         September 2003. The Department awarded this contract to BNFL
                         without full and open competition. The justification for reduced
                         competition cited BNFL's ability to call upon the expertise of its
                         parent company, British Nuclear Fuels plc, which had previously
                         decommissioned a uranium enrichment plant. BNFL's proposal for
                         the project was attractive to the Operations Office for several
                         reasons, including the fact that BNFL was responsible for financing
                         much of the work, and that BNFL claimed to have a patented
                         treatment process to decontaminate commercially valuable nickel
                         and sell it on the open market for private sector reuse.

BNFL's Management        Cost increases and schedule delays occurred primarily because of
Teams Were Ineffective   ineffective management. BNFL acknowledged responsibility for
                         some of the problems encountered in the early stages of the project,
                         stating that it had difficulties in managing the "ramp up" of such a
                         large workforce and project. BNFL changed project management
                         teams twice during the first two years of the contract. The first
                         change occurred in May 1998 and involved six upper-level
                         management personnel, including the project director, operations
                         cutting manager, and waste operations manager. The second change
                         occurred in August 1999 and involved all key personnel: the general
                         manager (project director and project manager); removal operations
                         manager; waste operations manager; environmental safety, health
                         and quality manager; and the administration manager.

                         BNFL was slow to identify and correct significant problems. For
                         example, BNFL had recurring safety problems. In April 1999,
                         BNFL shut down operations voluntarily due to multiple safety
                         concerns and an employee lost-time accident and did not completely
                         restart work until six weeks later. When the shutdown occurred,
                         BNFL had about 600 employees working on the project. All of the
                         employees reported to work during the shutdown period. During the
                         shut down period, employees underwent additional safety training
                         and work procedures were revised. BNFL voluntarily shut down
                         operations again in April 2000 for over two days due to a fire and
                         fissile safety concerns. Despite the shutdowns, safety training, and
                         revised work procedures, BNFL recorded 33 injuries to employees
                         working on the project in the 17 months ended May 2000. However,
                         BNFL's recordable injury rate significantly improved during
                         FY 2000.

Page 3                                                                     Details of Finding
                            BNFL management also discussed and analyzed for more than a year
                            the concept of building and operating a super-compactor to speed up
                            the D&D process. Use of a super-compactor would have allowed
                            large amounts of metal to be compacted instead of cut into pieces,
                            and would have decreased the volume of waste sent for disposal.
                            The decision was finally made in May 1999 to build the super-
                            compactor, but it will not be fully operable until December 2000.

                            Because of the schedule delays, the Operations Office directed
                            BNFL to submit a project recovery plan by February 28, 2000. The
                            recovery plan was supposed to contain detailed work activities,
                            critical completion factors, and work activity sequencing to show
                            how BNFL will get the project back on schedule. As of June 2000,
                            BNFL had not submitted a complete project recovery plan. The
                            document submitted by BNFL consisted of a revised schedule
                            without addressing any work improvements that needed to be made.
                            Until a complete project recovery plan is submitted, it will be
                            difficult to determine whether BNFL can get the project back on
                            schedule.

Operations Office Did Not   The Operations Office did not provide sufficient oversight of
Provide Sufficient          BNFL's project cost, and the contracting officer was not aware that
Oversight                   the total project cost would be significantly higher than the contract
                            price. Prior to award of the contract, DCAA reported that BNFL's
                            financial condition was unsatisfactory and that it had a probable
                            chance of experiencing future financial distress which could
                            jeopardize its ability to continue performing on contracts. As a
                            result, the Operations Office required BNFL to secure a bond to
                            guarantee project completion, one unit at a time. In addition, the
                            Operations Office's project manager was required to notify the
                            contracting officer of any indication that the cost to the Government
                            would exceed the amount stated in the contract. Although the project
                            manager received quarterly project cost reports, the project manager
                            never formally notified the contracting officer that BNFL's total
                            project costs would be significantly higher than the contract price.
                            The project manager believed the Government's risk was minimal
                            because the contract was awarded for a fixed price.

                            During the course of the audit, the Operations Office acknowledged
                            that additional oversight was needed. In March 2000, the Operations
                            Office added a claims manager, a legal advisor, and two technical
                            personnel to the project. The additional personnel will support cost
                            control by documenting daily work processes. The documentation
                            will be used to assist the contracting officer in evaluating the validity
                            of BNFL's requests for equitable price adjustments.

Page 4                                                                          Details of Finding
Project Will Cost $94     As a result of ineffective management of the project, we estimate
Million More Than the     the project will cost BNFL at least $344 million, which is $94
Current Contract Amount   million more than the current contract amount of $250 million. The
and Take 2 Years Longer   estimate was based on the current scope of work and does not
Than Planned              include BNFL's requests for equitable price adjustments. BNFL
                          stated that as a result of its initial poor performance on the contract,
                          it would incur almost $100 million in additional cost, which will not
                          be recovered from the Government. However, BNFL has already
                          submitted uncertified requests for equitable adjustments totaling
                          $107 million and expressed its intention to pursue an additional $40
                          million. The Department stated that it is highly unlikely it will
                          actually pay the full amount of BNFL's uncertified requests,
                          although it does admit the extent of certified requests could be
                          substantial. Further, at the current work pace, the project will not be
                          completed until at least two years after the original completion date.

RECOMMENDATIONS           We recommend that the Manager, Oak Ridge Operations Office:

                          1. Direct BNFL to provide a complete project recovery plan by
                             October 2000, detailing how it will complete the project within
                             the current contract price and schedule.

                          2. Direct Operations Office personnel to:

                                 a. Closely monitor BNFL contract cost and notify the CO of
                                    any indication that the cost to the Government will
                                    exceed the amount stated in the contract.

                                 b. Ensure that equitable price adjustments are not awarded
                                    to compensate BNFL for management inefficiencies.

                                 c. Apply lessons learned from the BNFL contract to future
                                    fixed-price contracts.

MANAGEMENT REACTION       Management concurred with the finding and recommendations.
                          Management stated that it would issue a letter by September 12,
                          2000, directing BNFL to submit a complete project recovery plan by
                          October 2000.

                          With respect to recommendation 2a, management stated that under a
                          fixed-price contract the project manager, the CO, and the contract
                          administrator are not allowed access to or provided any detailed
                          information regarding the contractor's financial reports or books.


Page 5                                                    Recommendations and Comments
                   The only general project cost information the Department receives
                   from the contractor is contained in quarterly status reports. The
                   information contained in the status reports was considered
                   inadequate for making decisions regarding project costs or the
                   contractor's financial condition. In addition, management stated that
                   the project manager provided copies of the quarterly reports to the
                   CO and discussed BNFL's reported contract termination liability as
                   well as BNFL's uncertified requests for equitable adjustments.
                   Finally, the CO ensured that adequate funding was obligated to cover
                   contract requirements in the case of contract termination.

                   Regarding recommendation 2b, management stated that it had been
                   and would continue ensuring that equitable price adjustments were
                   not awarded to compensate BNFL for management inefficiencies.

                   With respect to recommendation 2c, management stated that it would
                   prepare and forward to other D&D projects a report of lessons
                   learned on an ongoing basis.

AUDITOR COMMENTS   We consider Management's comments to be responsive. We agree
                   that Operations Office personnel monitored BNFL's reported
                   termination liability, uncertified requests for equitable adjustments
                   and contract funding amounts and had not awarded any equitable
                   adjustments that compensated BNFL for management inefficiencies.
                   However, despite DCAA's warning about BNFL's unsatisfactory
                   financial condition, Operations Office personnel did not use the
                   project cost information that was available to them to monitor project
                   costs (using the amounts contained in BNFL's proposal) versus
                   project progress. In the absence of this type of analysis, the CO was
                   not aware of the expected significant increase in total project costs
                   exclusive of BNFL's requests for equitable adjustments. Also, we
                   believe the magnitude of BNFL's requests for equitable adjustments,
                   the estimated project cost increases, and BNFL's financial condition,
                   warrant management paying close attention to the equitable price
                   adjustment process to ensure that no adjustments are awarded to
                   compensate BNFL for management inefficiencies.




Page 6                                            Recommendations and Comments
METAL SURVEY ERRORS

Recyclable Metal Must     BNFL's contract allows it to sell salvageable metal (excluding nickel)
Be Surveyed to            on the open market to recover some of its costs. However, BNFL must
Determine If It Is Safe   survey the metal to ensure that it meets Department Order 5400.5
for Release               criteria prior to release. Department Order 5400.5 states that for the
                          isotopes of concern (uranium and technetium), all surface contaminated
                          materials with activity levels exceeding 5,000 disintegrations per
                          minute per 100 centimeters squared (dpm/100 cm2) averaged over a
                          square meter or a maximum of 15,000-dpm/100 cm2 at a single point
                          cannot be approved for release on the open market. BNFL established
                          an administrative limit of 5,000-dpm/100 cm2 at a single point. Since
                          BNFL's administrative limit does not allow for averaging over a square
                          meter, the acceptable activity level is much more conservative than that
                          allowed by the Department.

                          As part of the process, before BNFL surveys a particular lot of metal, it
                          assigns the material to one of three classification levels utilizing process
                          knowledge and field evaluations. This classification system is based on
                          the Multi-Agency Radiation Survey and Site Investigation Manual.
                          This system dictates the minimum amount of surface area in each lot
                          that must be surveyed depending on the classification of the material.
                          Class I material is known or expected to contain contamination above
                          the Department's release criteria; therefore, 100 percent of each lot must
                          be surveyed. Class II material is known or expected to contain
                          contamination below the release criteria; thus, between 10 and 100
                          percent of each lot must be surveyed. Class III material is expected to
                          contain little or no contamination, and about 10 percent of each lot must
                          be surveyed.

BNFL's Survey Results     As the final step to the release process, the Operations Office hired an
Were Inaccurate           independent verification team to verify that BNFL was properly
                          surveying recyclable metal. Through May 2000, the verification team
                          tested 639 lots of metal that BNFL had surveyed and determined to be
                          appropriate for release. The team found that 22 lots exceeded the
                          administrative limit. Of the 22 lots, 2 exceeded the Department release
                          criteria. In several cases, the differences between BNFL's and the
                          team's survey results were significant. For example, in the beginning of
                          the project, BNFL surveyed a lot containing lube oil pipe at
                          530-dpm/100 cm2; however, the verification team determined that the
                          metal had an activity level of 110,000. In a more recent case, a lot
                          consisting of pipe supports at 1,973 by BNFL, but the verification team
                          determined the metal had an activity level of 16,000.




Page 7                                                                           Details of Finding
                          The percentage of lots the verification team rejected based on BNFL's
                          administrative limit due to BNFL's surveying errors almost doubled
                          from 1.8 percent to 3.4 percent in the 4 months ended May 2000. As a
                          result, on May 29, 2000, BNFL issued a temporary stop-work order
                          concerning all surveying activities.


Survey Personnel Lacked   Many of the results of metal surveys that have been documented to date
Adequate Supervision      as being inaccurate were a result of BNFL employees who performed
                          the surveys not being adequately supervised. It has been noted that
                          BNFL experienced significant turnover in survey supervisors. This
                          large management turnover affected training and continuity with the
                          BNFL survey program and was creating potential systematic problems
                          with the release process. Specifically, the knowledge which the
                          supervisors obtained concerning the areas of material most likely to
                          contain contamination as well as recurring problem areas would have
                          been lost unless BNFL documented the information in work records
                          and then required every new supervisor and every new survey
                          technician to review those records. BNFL, however, was not
                          documenting recurring problem areas and thus did not initiate
                          corrective actions on a trending basis. For example, the verification
                          team reported problems with transformer surveys to BNFL in
                          September 1999. The team then found three more lots where BNFL
                          personnel incorrectly surveyed transformer activity levels in December
                          1999, February 2000, and April 2000. The verification team also
                          reported that problems were occurring with supply duct surveys in
                          February 2000. During the next two months, the team identified four
                          additional lots that exceeded the release criteria.

Risk of Release of        As a result of inaccurate surveys, the risk to the public that
Contaminated Metals       contaminated metals were released from the site was increased. Since
Increased                 the verification team does not verify every item in each lot, additional
                          surveying errors would not be detected, and in some cases, lots
                          exceeding the release criteria may have been released. As of the end of
                          May 2000, about 6.6 million pounds of unrestricted metal were released
                          for recycling from the site. To date, no instances of contaminated metal
                          have been reported by recipients of the recycled metal.

                          Although unrelated to our report, the Secretary of Energy suspended the
                          release of potentially contaminated scrap metals for recycling from
                          Department nuclear facilities effective July 13, 2000.




Page 8                                                                        Details of Finding
RECOMMENDATIONS       We recommend that the Manager, Oak Ridge Operations Office,
                      require BNFL to:

                      1. Ensure that personnel performing metal surveys are adequately
                         supervised, and

                      2. Monitor the quality of surveys performed by BNFL employees and
                         initiate corrective actions as needed.

MANAGEMENT REACTION   Management concurred with the finding and recommendations.
                      Management stated that the corrective actions taken by BNFL
                      subsequent to its voluntary stop-work action on May 29, 2000, added
                      lines of defense to ensure that no materials are released above the
                      Department's release criteria. For example, BNFL conducted an
                      internal audit of its entire survey and release process that resulted in
                      procedural updates, additional training, and implementation of added
                      steps prior to release of material for verification. BNFL is also
                      implementing a real-time auditing procedure consisting of intentionally
                      placing a known source of radiation within a lot of metal to evaluate the
                      effectiveness of its survey program. The source of radiation is removed
                      before allowing the material to be transported from the contamination
                      area. Finally, issues identified by the verification team will now be
                      handled at BNFL's management level rather than by floor level
                      personnel as was done in the past.

AUDITOR COMMENTS      The corrective actions cited by management are considered responsive.
                      However, the reliability of BNFL's recently added survey process
                      controls cannot be verified since the actions were taken after the audit
                      fieldwork was completed and after the voluntary stop-work action.




Page 9                                                  Recommendations and Comments
Appendix 1

SCOPE         The audit was performed from February 22 to June 8, 2000, at the
              Operations Office and the ETTP. The scope of the audit included costs
              incurred and progress made on the D&D contract from August 1997
              through June 2000.

METHODOLOGY   To accomplish the audit objective, we:

                     •   Evaluated BNFL’s contractual requirements and
                         performance through June 2000;
                     •   Reviewed Federal and Department regulations governing
                         contract management and metal recycling;
                     •   Examined procurement and project files;
                     •   Evaluated the adequacy of the Operations Office’s project
                         oversight;
                     •   Analyzed the costs associated with the D&D activities;
                     •   Conducted walk-throughs of facilities; and
                     •   Held discussions with Department and contractor personnel
                         regarding D&D activities.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of costs incurred and progress made on
              BNFL’s D&D contract for Buildings K-29, K-31, and K-33. Because
              our review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of our
              audit. We did not conduct a reliability assessment of computer-
              processed data because only a very limited amount of computer-
              processed data was used during the audit.

              As part of our review, we evaluated the Operations Office's
              expectations and performance measures for the D&D contract for
              Buildings K-29, K-31, and K-33. Although the Department established
              performance measures in accordance with the Government Performance
              and Results Act of 1993, BNFL was not meeting the performance
              measures as discussed in the body of the report.

              We held an exit conference with the project manager for BNFL's
              contract, Oak Ridge Operations Office, on September 5, 2000.




Page 10                                                   Scope and Methodology
Appendix 2


                    RELATED OFFICE OF INSPECTOR GENERAL REPORTS


  •   Audit of the Decontamination and Decommissioning at the East Tennessee Technology Park
      (ER-B-99-01, December 1998). The report concluded that the Operations Office did not fully
      emphasize reductions of health, safety and environmental risks when it selected projects to D&D.
      Specifically, the Operations Office's contract with BNFL did not involve Building K-25, the
      facility that posed the greatest risk from exposure to radioactive waste, hazardous or toxic
      materials, and structural collapse. As a result, Building K-25 continued to deteriorate, and hazards
      to workers and the environment were increased. We estimated that the Department could incur
      $34.5 million in unnecessary surveillance and maintenance costs for Building K-25 between FYs
      1998 and 2002. We recommended that the Operations Office prioritize its selection of D&D
      projects with a greater emphasis on reducing health, safety, and environmental risks for workers
      and the public. Management did not concur with the finding and recommendation; however, they
      did request additional funding in FY 2001 for the D&D of Building K-25.

  •   Audit of the Deactivation, Decontamination, and Disposal of Surplus Facilities at the Savannah
      River Site (ER-B-98-01, October 1997). We determined that the Savannah River Operations
      Office and Westinghouse Savannah River Company (Westinghouse) had not economically and
      promptly deactivated, decontaminated, and disposed of surplus facilities at the site. Specifically,
      Westinghouse only disposed of one facility and did not completely deactivate or decontaminate
      any of the 162 facilities identified as surplus in FY 1996. This occurred because the Savannah
      River Operations Office did not compile a site-wide list, establish priorities, or provide sufficient
      funding for the deactivation, decontamination, and disposal of surplus facilities. As a result, the
      Department incurred unnecessary costs for the surveillance and maintenance of surplus facilities.
      Management concurred with the finding and recommendations, and initiated corrective action.




Page 11                                                                                           Past Audits
                                                                              IG Report No.: DOE/IG-0481

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
